HHS/OIG-Audit--"Provident Life and Accident Insurance Company - Medicare Secondary Payer, (A-04-92-02049)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Provident Life and Accident Insurance Company - Medicare Secondary Payer," (A-04-92-02049)
December 8, 1993
Complete
Text of Report is available in PDF format (526 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In April 1988 the Department of Justice (DOJ) filed a lawsuit against Provident seeking to recover overpayments due the
Federal Government as a result of Provident's failure to comply with Medicare secondary payer (MSP) requirements. The Office
of Inspector General provided various audit services as members of a task force to determine the amount of Provident's
MSP liability. In May 1993 DOJ settled its lawsuit against Provident for $27 million. The agreement also contained provisions
which, if implemented, should help preclude extensive MSP overpayments in the future. The OIG will monitor efforts in implementing
the settlement agreement provisions. We are recommending that the Health Care Financing Administration continue its ongoing
efforts to resolve similar MSP situations.